U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

September 11, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Jose S. Sanchez, et al. v. Chad Wolf,
Secretary of Homeland Security, et al,
S.Ct. No. 20-315

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on September 8,
2020, and placed on the docket on September 10, 2020. The government’s response is due on
October 12, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including November 12, 2020, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-0315
SANCHEZ, JOSE S., ET AL.
CHAD WOLF, ACTING SEC. OF HOMELAND
SECURITY, ET AL.

JAIME WINTHUYSEN APARISI
8630 FENTON STREET
SUITE 932
SILVER SPRING, MD 20910
301-562-1416
JAIME@APARISI.COM

